No. 20-319

In the Supreme Court of the United States
COMCAST CORPORATION, ET AL., PETITIONERS
v.
VIAMEDIA, INC.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT

BRIEF FOR THE UNITED STATES AS AMICUS CURIAE

ELIZABETH B. PRELOGAR
Acting Solicitor General
Counsel of Record
RICHARD A. POWERS
Acting Assistant Attorney
General
MALCOLM L. STEWART
Deputy Solicitor General
SOPAN JOSHI
Assistant to the Solicitor
General
KATHLEEN S. O’NEILL
Senior Director of Litigation
DANIEL E. HAAR
NICKOLAI G. LEVIN
MARY HELEN WIMBERLY
Attorneys
Department of Justice
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
(202) 514-2217

QUESTIONS PRESENTED

1. Whether respondent plausibly alleged that petitioners’ unilateral refusal to deal violated Section 2 of
the Sherman Act, 15 U.S.C. 2.
2. Whether petitioners were entitled to summary
judgment on respondent’s tying claim, notwithstanding
any disputed issue of material fact as to the usual elements of an unlawful tying arrangement, on the ground
that respondent’s evidence of unlawful tying included
proof that petitioners had refused to deal with respondent.

(I)

TABLE OF CONTENTS

Page
Statement ...................................................................................... 1
Discussion ...................................................................................... 7
A. The court of appeals’ reinstatement of respondent’s
refusal-to-deal claim does not warrant further
review ................................................................................. 8
B. The court of appeals’ reinstatement of respondent’s
tying claim does not warrant further review................ 20
Conclusion ................................................................................... 24
TABLE OF AUTHORITIES

Cases:
Aerotec International, Inc. v. Honeywell
International, Inc., 836 F.3d 1171 (9th Cir. 2016) .......... 23
Aspen Skiing Co. v. Aspen Highlands Skiing Corp.,
472 U.S. 585 (1985)............................................ 5, 8, 9, 10, 13
Eastman Kodak Co. v. Image Technical Services,
Inc., 504 U.S. 451 (1992) ............................................... 21, 22
Jefferson Parish Hospital District No. 2 v.
Hyde, 466 U.S. 2 (1984) .................................................. 5, 20
Novell, Inc. v. Microsoft Corp., 731 F.3d 1064
(10th Cir. 2013), cert. denied, 572 U.S. 1096 (2014) ......... 19
Pacific Bell Telephone Co. v. linkLine
Communications, Inc., 555 U.S. 438 (2009) ................ 9, 22
Service & Training, Inc. v. Data General Corp.,
963 F.2d 680 (4th Cir. 1992) ............................................... 23
United States v. Grinnell Corp., 384 U.S. 563 (1966) .......... 4
Verizon Communications Inc. v. Law Offices
of Curtis V. Trinko, LLP, 540 U.S. 398 (2004) ....... passim
Statutes:
Sherman Act, 15 U.S.C. 2 ............................................. 4, 8, 15
(III)

IV
Statute—Continued:

Page

47 U.S.C. 522(13) ..................................................................... 2
Miscellaneous:
Gregory J. Werden, Identifying Exclusionary
Conduct Under Section 2: The “No Economic
Sense” Test, 73 Antitrust L.J. 413 (2006) ......................... 18

In the Supreme Court of the United States
No. 20-319
COMCAST CORPORATION, ET AL., PETITIONERS
v.
VIAMEDIA, INC.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT

BRIEF FOR THE UNITED STATES AS AMICUS CURIAE

This brief is submitted in response to the Court’s order inviting the Acting Solicitor General to express the
views of the United States. In the view of the United
States, the petition for a writ of certiorari should be denied.
STATEMENT

Respondent sued petitioners in the United States
District Court for the Northern District of Illinois, alleging violations of federal antitrust laws and state
laws. The district court granted petitioners’ motion to
dismiss certain claims, Pet. App. 145a-191a, 192a-206a,
and granted summary judgment to petitioners on the
remaining claims, id. at 207a-275a. The court of appeals
reversed. Id. at 1a-144a.
1. Petitioners are Comcast Corp. and one of its
wholly owned subsidiaries. For simplicity, this brief
will treat them as a single petitioner. Petitioner is a
(1)

2
technology and entertainment company that offers a variety of goods and services, including cable television.
Pet. App. 284a. In providing cable-television services,
it acts as a multichannel video programming distributor
(MVPD), generally defined as an entity that “makes
available for purchase, by subscribers or customers,
multiple channels of video programming.” 47 U.S.C.
522(13); see Pet. App. 9a.
Contracts between MVPDs and television networks
typically authorize the MVPD to sell a few minutes per
hour of advertising time—called “spot advertising”—on
each network that it carries. See Pet. App. 147a. Unlike
advertisements that the networks themselves sell and
air, which appear to everyone watching a given program
on that network, an MVPD’s spot advertisements ordinarily appear only to its own subscribers. See id. at
147a-148a. Among other benefits, spot advertising allows advertisements to be geographically targeted to a
particular designated marketing area, so that “during a
national broadcast like the World Series, for example, a
Chicago-area car dealership can advertise only in the
Chicago [area] while a Cleveland restaurant can simultaneously advertise exclusively in the Cleveland [area].”
Id. at 148a.
Often several MVPDs operate in a given area. Pet.
App. 149a. An advertiser wishing to reach everyone
watching a certain program in (for example) the Chicago area therefore must separately negotiate with
each Chicago-area MVPD to run a spot advertisement
during that program. Ibid. To reduce transaction costs,
MVPDs in each region have cooperated to develop an
“Interconnect”: a single clearinghouse for each region
to sell advertising spots that all of the participating
MVPDs will show to their respective subscribers. Ibid.

3
The largest MVPD in the region often serves as Interconnect manager and controls the regional Interconnect. Id. at 150a. Petitioner performs that function in
many of the largest markets, including Chicago and Detroit. Ibid.
“Organizing, marketing, and selling [s]pot [c]able
[a]dvertising on behalf of MVPDs * * * takes a substantial amount of specialized knowledge, infrastructure, resources, and technical ability.” Pet. App. 300a.
Accordingly, “[s]ome of the largest MVPDs—such as
[petitioner]—devote entire subsidiary organizations” to
the task. Ibid. Smaller MVPDs, however, “do not have
the resources to invest in the highly-specialized infrastructure, equipment, staff, and expertise necessary to
run their own in-house.” Ibid. They instead obtain
advertising-representation (ad-rep) services by contracting with larger MVPDs or independent providers.
See id. at 300a, 302a.
Both petitioner and respondent provide ad-rep services, and they compete with each other for ad-rep contracts with various MVPDs. Pet. App. 152a-153a.
Smaller MVPDs hire respondent to help them sell their
available spot-advertising slots, both directly to potential advertisers and through the Interconnect clearinghouse. Id. at 152a, 286a, 300a-301a. One reason they
prefer respondent is that (unlike petitioner) it is not a
competitor MVPD. See id. at 32a, 302a. Respondent
alleges that, starting in 2012, petitioner in its role as Interconnect manager denied respondent access to the
Chicago- and Detroit-area Interconnects, thereby preventing respondent’s clients from selling spot-advertising
slots through those clearinghouses. Id. at 154a-155a,

4
308a, 311a-312a. Respondent alleges that petitioner refused to reinstate Interconnect access except under
commercially unreasonable terms. Id. at 155a, 311a.
Petitioner then allegedly told respondent’s clients
that they could regain access to the Interconnects if
they ended their respective relationships with respondent and instead purchased ad-rep services from petitioner. Pet. App. 155a-156a, 311a-312a. Respondent alleges that a “similar course of events unfolded” in other
markets where petitioner had market power. Id. at
156a, 313a. Upon the termination of their contracts to
obtain ad-rep services from respondent, respondent’s
clients in Chicago and Detroit ended their respective relationships with respondent and purchased ad-rep services from petitioner. Id. at 156a, 312a-313a. Respondent alleges that petitioner, in its role as Interconnect
manager, forwent millions of dollars in revenue by
denying respondent’s clients access to the Interconnects during the periods those clients remained under
contract with respondent. Id. at 320a-322a.
2. a. Respondent filed suit, alleging that petitioner
had monopolized ad-rep services markets in several
metropolitan areas, in violation of Section 2 of the Sherman Act, 15 U.S.C. 2. See Pet. App. 36a-37a; id. at 328a331a. A monopolization claim under Section 2 “has two
elements: (1) the possession of monopoly power in the
relevant market and (2) the willful acquisition or
maintenance of that power.” United States v. Grinnell
Corp., 384 U.S. 563, 570-571 (1966). Accordingly, “the
possession of monopoly power will not be found unlawful unless it is accompanied by an element of anticompetitive conduct.” Verizon Communications Inc. v.
Law Offices of Curtis V. Trinko, LLP, 540 U.S. 398, 407
(2004) (Trinko). Respondent alleged that the practices

5
described above constituted both an unlawful refusal to
deal and an unlawful tying arrangement.
This Court’s decision in Aspen Skiing Co. v. Aspen
Highlands Skiing Corp., 472 U.S. 585 (1985), is “[t]he
leading case for § 2 liability based on refusal to cooperate with a rival.” Trinko, 540 U.S. at 408. There, the
Court upheld a jury verdict against a ski resort that had
refused to reinstate a joint ticket program with its
smaller competitor, even when the competitor offered
to pay the full retail price for the larger resort’s tickets.
Aspen Skiing, 472 U.S. at 610-611.
“[T]he essential characteristic of an invalid tying arrangement lies in the seller’s exploitation of its control
over the tying product to force the buyer into the purchase of a tied product that the buyer either did not
want at all, or might have preferred to purchase elsewhere on different terms.” Jefferson Parish Hospital
District No. 2 v. Hyde, 466 U.S. 2, 12 (1984). Here, respondent alleged that petitioner had improperly exploited its control over Interconnects to force respondent’s clients to purchase a separate product—ad-rep
services—that those customers would have preferred to
purchase from respondent. Pet. App. 328a-331a.
b. The district court dismissed the refusal-to-deal
claim, first with leave to amend, Pet. App. 145a-191a,
and later with prejudice, id. at 192a-206a. The court
subsequently granted summary judgment to petitioner
on the tying claim. Id. at 207a-275a.
The district court dismissed the refusal-to-deal claim
on the ground that respondent had not “adequately alleged” that petitioner’s refusal to deal “was irrational
but for its anticompetitive effect.” Pet. App. 205a. The
court stated that petitioner’s “refusing to deal with [respondent] offers potentially improved efficiency.” Id. at

6
189a. The court explained that, “[b]efore [petitioner’s]
refusal to deal, MVPDs gave [respondent] control of
their [spot-advertising slots] and then [respondent]
gave control over a portion of those [slots] to the Interconnect. After [petitioner’s] refusal to deal, * * *
MVPDs simply deal with [petitioner] directly.” Id. at
188a-189a. The court concluded that “[t]his type of vertical integration or elimination of a middleman * * *
represent[s] a prototypical valid business purpose.” Id.
at 203a.
In granting summary judgment to petitioner on the
tying claim, the district court found “[n]o evidence
show [ing] that [petitioner] told MVPDs, expressly or
impliedly, that they could only purchase Interconnect
Services on the condition that they also purchase Ad
Rep Services.” Pet. App. 240a; see id. at 242a. The
court also found that respondent’s customers could
“have received an interconnect-only deal if they had requested one—that is, that they could have received the
tying product without the tied product—but the record
indisputably shows they did not want that service
alone.” Id. at 248a.
3. The court of appeals reversed. Pet. App. 1a-144a.
a. The court of appeals reversed the dismissal of the
refusal-to-deal claim, see Pet. App. 45a-69a, concluding
that respondent’s claim “closely tracks Aspen Skiing”
by alleging “a prior course of voluntary conduct, sacrifice of short-term profits, and refusal to sell to rivals on
the same terms as other potential buyers,” id. at 62a63a. The court further held that respondent had plausibly pleaded that petitioner’s “conduct was irrational but
for its anticompetitive effect.” Id. at 63a. The court rejected petitioner’s argument that its vertical integration
foreclosed liability for a refusal to deal, explaining that

7
“[n]o one objects to a vertically integrated [petitioner]
offering both Interconnect services and ad rep services,” id. at 68a, but that “[t]aking control of and exploiting control of a previously cooperative mechanism
[i.e., an Interconnect] is not vertical integration,” id. at
69a.
The court of appeals also reversed the grant of summary judgment to petitioner on the tying claim. Pet.
App. 69a-86a. Citing emails and testimony from respondent’s clients and petitioner’s own employees, the
court found “[a]mple evidence show [ing] that [petitioner] conditioned MVPDs’ access to the Interconnects
on hiring [petitioner] as their ad rep.” Id. at 77a. The
court further explained that, to the extent the evidence
was contested, “[respondent] is entitled to the benefit of
reasonable inferences and interpretations in its favor.”
Ibid. The court also rejected petitioner’s argument that
respondent’s tying claim “fail[ed] as a matter of law
simply because it was implemented by refusing to deal
with an intermediary.” Id. at 81a.
b. Judge Brennan concurred in part and dissented
in part. Pet. App. 109a-144a. He agreed with the majority’s disposition of the refusal-to-deal claim, on the
ground that respondent had plausibly alleged that petitioner’s refusal to deal was “irrational but for its anticompetitive effect.” Id. at 112a; see id. at 111a-116a.
Judge Brennan dissented from the majority’s ruling on
the tying claim. Id. at 128a-144a. In his view, evidence
that petitioner had conditioned Interconnect access on
purchase of its ad-rep services “is simply absent from
the undisputed facts.” Id. at 133a.
DISCUSSION

Petitioner challenges the court of appeals’ rulings on
respondent’s refusal-to-deal and tying claims. Neither

8
question presented warrants further review. The court
correctly held that respondent had plausibly alleged an
unlawful refusal to deal under this Court’s decisions in
Verizon Communications Inc. v. Law Offices of Curtis
V. Trinko, LLP, 540 U.S. 398 (2004) (Trinko), and Aspen Skiing Co. v. Aspen Highlands Skiing Corp., 472
U.S. 585 (1985). The court of appeals’ factbound determination that there remained a genuine dispute of material fact on respondent’s tying claim is likewise correct and does not warrant this Court’s review.
A. The Court Of Appeals’ Reinstatement Of Respondent’s
Refusal-To-Deal Claim Does Not Warrant Further
Review

The court of appeals correctly held that respondent
had plausibly pleaded a refusal-to-deal claim. In Trinko,
supra, this Court recognized the continuing vitality of
Aspen Skiing, where the Court held that a refusal to
deal with a rival may in some circumstances violate Section 2. The court of appeals correctly held that, taking
respondent’s allegations as true, the circumstances on
which the Aspen Skiing Court based its decision are
equally present here. Petitioner challenges the court of
appeals’ refusal to adopt the “no economic sense” test
applied by the Tenth Circuit as the exclusive basis for
Section 2 liability in refusal-to-deal cases. But the court
applied the no-economic-sense test and held that respondent’s allegations satisfy it. That factbound ruling
does not warrant this Court’s review, and it would provide an adequate ground for the court of appeals’ judgment even if this Court adopted that test as the exclusive basis for refusal-to-deal liability. Further review is
not warranted.
1. “As a general rule, businesses are free to choose
the parties with whom they will deal, as well as the

9
prices, terms, and conditions of that dealing.” Pacific
Bell Telephone Co. v. linkLine Communications, Inc.,
555 U.S. 438, 448 (2009). That freedom generally extends to businesses with monopoly power. Trinko, 540
U.S. at 408. Imposing a broad duty on monopolists to
deal with their rivals would be “in some tension with the
underlying purpose of antitrust law, since it may lessen
the incentive for the monopolist, the rival, or both to invest in * * * economically beneficial facilities.” Id. at
407-408. It also could “facilitate the supreme evil of antitrust: collusion.” Id. at 408.
This Court has explained, however, that “the high
value that [it has] placed on the right to refuse to deal
with other firms does not mean that the right is unqualified.” Trinko, 540 U.S. at 408 (brackets and citation
omitted). Refusing to cooperate with rivals “as a purposeful means of monopolizing interstate commerce is
prohibited by the Sherman Act.” Aspen Skiing, 472
U.S. at 602 (citation omitted). While the Court “ha[s]
been very cautious in recognizing such exceptions” to
the general right to refuse to deal, it has held that
“[u]nder certain circumstances, a refusal to cooperate
with rivals can constitute anticompetitive conduct and
violate § 2.” Trinko, 540 U.S. at 408.
In Aspen Skiing, the defendant (which owned three
of the four mountain areas in the Aspen ski area) and
the plaintiff (which owned the fourth mountain area)
had cooperated for years in the issuance of a joint ski
ticket. 472 U.S. at 587-591. After repeatedly demanding an increased share of the profits, the defendant terminated its participation in the joint ticket, even refusing to sell its own ski tickets to the plaintiff at retail
prices. Id. at 592-594. This Court upheld a jury verdict
against the defendant, explaining that a reasonable

10
factfinder could have inferred from the evidence at trial
that the defendant “was not motivated by efficiency concerns,” id. at 610, but instead was “more interested in
reducing competition in the Aspen market over the long
run by harming its smaller competitor,” id. at 608.
In Trinko, this Court described Aspen Skiing as “at
or near the outer boundary of § 2 liability,” but affirmed
the continuing vitality of that decision. 540 U.S. at 409.
The plaintiff in Trinko alleged that a local telephone
company had violated the antitrust laws by refusing to
share its network with its rivals, in violation of its obligations under a telecommunications statute. Id. at 405.
The Trinko Court did not adopt a universal standard
governing all refusal-to-deal claims. Instead, it framed
the “question before [it]” as “whether the allegations of
[the plaintiff ’s] complaint fit within existing exceptions”
to the general right to refuse to deal “or provide[d] a
basis, under traditional antitrust principles, for recognizing a new one.” Id. at 408.
In explaining why “[t]he refusal to deal [in Trinko]
d[id] not fit within the limited exception recognized in
Aspen Skiing,” 540 U.S. at 409, the Trinko Court emphasized three distinctions between the circumstances
before it and those involved in the prior case. First, the
Court observed that “[t]he complaint does not allege
that [the phone-company defendant] voluntarily engaged in a course of dealing with its rivals, or would
ever have done so absent statutory compulsion.” Ibid.
For that reason, the Court explained, the Trinko “defendant’s prior conduct shed[] no light upon” whether
the defendant’s “refusal to deal” was motivated “by
competitive zeal” or “by anticompetitive malice.” Ibid.
In Aspen Skiing, by contrast, “[t]he unilateral termination of a voluntary (and thus presumably profitable)

11
course of dealing suggested a willingness to forsake
short-term profits to achieve an anticompetitive end.”
Ibid.
Second, the Trinko Court noted the “difference in
pricing behavior” between the two cases. 540 U.S. at
409. The Aspen Skiing defendant had “turned down a
proposal to sell at its own retail price, suggesting a calculation that its future monopoly retail price would be
higher.” Ibid. The Court observed that “the [Aspen
Skiing] defendant’s unwillingness to renew the ticket
even if compensated at retail price revealed a distinctly
anticompetitive bent.” Ibid. By contrast, the Court explained that the phone company’s “reluctance” to share
its network with rivals at statutorily mandated rates
“tells us nothing about dreams of monopoly.” Ibid.
Third, the Court observed that the regulatory context in which the refusal to deal had occurred made
Trinko “different from Aspen Skiing in a more fundamental way.” 540 U.S. at 409-410. In Aspen Skiing,
“what the defendant refused to provide to its competitor
was a product [lift tickets] that it already sold at retail.”
Id. at 410. In Trinko, by contrast, the “services allegedly withheld are not otherwise marketed or available
to the public,” but instead were “created” by and
“brought out on compulsion of ” the telecommunications
statute, to be “offered not to consumers but to rivals.”
Ibid.
The Court in Trinko also concluded that “traditional
antitrust principles” did not “justify adding the present
case to the few existing exceptions from the proposition
that there is no duty to aid competitors.” 540 U.S. at
411. The Court explained that “[o]ne factor of particular importance is the existence of a regulatory structure
designed to deter and remedy anticompetitive harm.”

12
Id. at 412. The Trinko Court concluded that the comprehensive telecommunications regulatory regime “was
an effective steward of the antitrust function,” id. at
413, and that “[a]n antitrust court is unlikely to be an
effective day-to-day enforcer of the[] detailed sharing
obligations” imposed by that regime, id. at 415. The
Court accordingly held that the plaintiff ’s complaint
“fail[ed] to state a claim under the Sherman Act.” Id.
at 416.
2. The court of appeals correctly applied Aspen Skiing and Trinko to hold that respondent had plausibly
alleged an unlawful refusal to deal.
a. Respondent’s allegations “fit within the limited
exception recognized in Aspen Skiing,” Trinko, 540
U.S. at 409, even under the narrowest understanding of
that exception, because respondent has plausibly alleged all three of the circumstances in Aspen Skiing
that the Trinko Court later identified as significant.
First, respondent has alleged that the parties previously engaged in a voluntary and profitable course of
dealing. E.g., Pet. App. 285a, 307a-308a. Second, respondent has alleged that it is willing to pay the market
prices that petitioner otherwise would charge for Interconnect access. E.g., id. at 320a. Respondent has further alleged (id. at 320a-322a) that petitioner deliberately forwent substantial short-term profits, thus “suggesting a calculation that [petitioner’s] future monopoly
retail price would be higher” once it forced respondent
to leave the ad-rep services market. Trinko, 540 U.S.
at 409. Third, respondent has alleged that, in markets
where petitioner is dominant, petitioner generally offers Interconnect access to all MVPDs except respondent’s clients. E.g., Pet. App. 322a. And petitioner does

13
not contend that Interconnect access and ad-rep services were recently created or compelled by a comprehensive regulatory regime. Respondent’s factual allegations, taken as true, unambiguously bring this case
within the contours of Aspen Skiing.
b. Petitioner identifies four purported distinctions
between this case and Aspen Skiing. None is availing.
i. Petitioner suggests that “the monopolist ski
mountain owner [in Aspen Skiing] ‘failed to offer any
efficiency justification whatever,’ ” Pet. 11 (brackets and
citation omitted), whereas respondent’s operative complaint acknowledges a potential “ ‘efficiency justification’ ” from “disintermediation,” Pet. 13 (citation omitted). But the Aspen Skiing defendant did offer several
justifications for abandoning the joint ticket: “usage
could not be properly monitored,” the tickets “were administratively cumbersome,” the surveys used to allocate revenue “had been disruptive” and “inaccurate,”
and the defendant did not want to be associated with its
rival’s “inferior skiing services.” 472 U.S. at 609-610.
The defendant simply “did not persuade the jury that
its conduct was justified by any normal business purpose.” Id. at 608; see ibid. (“The jury may well have
concluded that [the defendant] elected to forgo * * *
short-run benefits because it was more interested in reducing competition in the Aspen market over the long
run by harming its smaller competitor.”).
ii. Petitioner suggests that its desire to vertically integrate, and to obviate the need for reliance on intermediaries by dealing directly with respondent’s clients, reflects a “prototypical valid business purpose” that
should, as a matter of law, preclude refusal-to-deal liability. Pet. 13 (citation omitted); see Pet. 13-14. But

14
petitioner, which functions as an MVPD, an Interconnect manager, and an ad-rep services provider, already
“is vertically integrated and has been at all relevant
times. No one objects to a vertically integrated [petitioner] offering both Interconnect services and ad rep
services.” Pet. App. 68a. Respondent has plausibly alleged that petitioner’s decision to exclude respondent’s
clients from Interconnects was not a step towards further vertical integration, but rather an exclusionary act
based on “exploiting its control over the cooperative Interconnects.” Id. at 66a.
iii. Petitioner contends that the Aspen Skiing defendant “stopped offering multi-mountain passes altogether” and “behaved differently in other markets.”
Pet. 14-15. But respondent similarly alleges that petitioner stopped offering Interconnect-only access to respondent’s clients in certain markets. And the court of
appeals explained that respondent has alleged that petitioner behaved differently in other regions “where it
did face competition.” Pet. App. 63a; see id. at 322a-323a.
iv. Petitioner attaches significance to the difference
between “ ‘ski mountain passes’ ” and the “highly complex, evolving industry” here. Pet. 15 (brackets and citation omitted). But Trinko likewise involved the complex and evolving telecommunications industry, yet this
Court did not treat those particular characteristics as
relevant to determining whether the allegations fell
within the Aspen Skiing exception. See Trinko, 540
U.S. at 409-410.
3. Petitioner further suggests (Pet. 24-26) that the
court of appeals erred in refusing to adopt the “no economic sense” test. But the court did apply that test, and
correctly found that respondent had plausibly alleged

15
that petitioner’s conduct made no economic sense but
for its harmful effects on competition. Pet. App. 63a.
a. The United States’ amicus brief in Trinko argued
that “only ‘exclusionary’ or ‘predatory’ conduct is proscribed by Section 2,” and that “in cases asserting a
duty to assist rivals, conduct is exclusionary only if it
would not make economic sense but for the tendency to
impair competition.” Gov’t Amicus Br. at 14-15, Trinko,
supra (No. 02-682) (capitalization, citation, and emphasis omitted). The government’s brief in Trinko characterized Aspen Skiing as a case in which the defendant’s
refusal to deal with its rival was “condemned [under
Section 2] because it made no economic sense but for its
anticompetitive consequences.” Id. at 20. In the present case, the government’s amicus brief in the court of
appeals endorsed (at 11-16) the no-economic-sense test
as the proper standard for analyzing refusal-to-deal
claims brought under Section 2, while taking no position
on the proper application of that test to the allegations
in respondent’s complaint.*
As all three members of the panel below agreed, respondent’s allegations satisfy the no-economic-sense
test. The panel majority explained that, in a section of
respondent’s operative complaint “entitled ‘[Petitioner’s] Refusal to Deal with [Respondent] is Irrational
But for its Anticompetitive Effects,’ ” Pet. App. 63a (citation omitted),
[respondent] walked through the long-term course of
dealing prior to [petitioner’s] conduct; the subsequent
* We are unaware of any appellate brief for the government filed
between 2005 (the year after Trinko was decided) and 2018 (when
the government filed its amicus brief in the court of appeals in this
case) that has addressed the no-economic-sense test for a refusalto-deal claim under Section 2.

16
degradation of the value of the cooperative Interconnects; the financial losses suffered by [petitioner] itself, as well as by [respondent] and [petitioner’s]
competitor MVPDs; [petitioner’s] willingness to offer Interconnect-only access in other markets where
it did face competition; and the fact that “there are
no procompetitive justifications” to be achieved by
the conduct given that there were “no material administrability problems in allowing [respondent] to
participate in Interconnects” on behalf of its MVPD
customers.
Ibid. (brackets and citation omitted); see id. at 319a324a. Those factual allegations, taken as true, suggest
that petitioner’s decision to incur substantial shortterm “financial losses” by excluding respondent’s clients from the Interconnects, id. at 63a, and the resulting “degradation of the value of the cooperative Interconnects” themselves, ibid., would make no economic
sense except insofar as respondent’s exclusion from the
ad-rep services markets could enable petitioner to obtain increased ad-rep services revenues, both by acquiring additional ad-rep clients and by charging monopoly
prices for those services.
To be sure, a monopolist might have legitimate procompetitive reasons for sacrificing short-term profits,
such as to prevent harm to its customers or to develop
an innovative replacement product. See Gov’t C.A.
Amicus Br. 14-15 & n.4. A monopolist might legitimately pursue those benefits by withdrawing from a
prior course of dealing with a rival, or by declining to
enter into such an arrangement in the first instance.
But respondent has plausibly alleged that no such procompetitive aims explain petitioner’s conduct here.
Among other things, “[petitioner’s] willingness to offer

17
Interconnect-only access in other markets where it did
face competition,” Pet. App. 63a, supports an inference
that petitioner’s refusal to do so here was driven by anticompetitive aims, and that petitioner hoped to recoup
its short-term losses in Interconnect revenue by obtaining increased revenues for ad-rep services once respondent was driven out of that market.
b. Petitioner principally takes issue (Pet. 10, 12-14,
21-25) with the court of appeals’ statements that, in
evaluating potential procompetitive justifications under
the no-economic-sense test, a court should “balanc[e]
anticompetitive effects against hypothesized justifications,” Pet. App. 57a, or “balance gains to the monopolist against losses to consumers,” id. at 60a n.13. The
precise import of those statements, read in isolation, is
unclear. Taken as a whole, however, the opinion below
unambiguously holds that the allegations in respondent’s complaint are sufficient to withstand a motion to
dismiss even on the narrowest understanding of the criteria for refusal-to-deal liability articulated in Aspen
Skiing and Trinko.
As the government explained at oral argument below, the term “balancing” can be used in this context to
refer to the offsetting of any profits to the defendant
both by the short-term losses it incurs, and by the portion of those profits that are attributable to anticompetitive (rather than efficiency) gains. See C.A. Oral Argument at 26:14-27:26 (Feb. 7, 2019). In other words, the
no-economic-sense test evaluates whether the conduct
is “profitable apart from any reduction in competition.”
Id. at 26:16-26:22. If particular conduct is “profitable”
in that sense, it cannot be declared unlawful under the
no-economic-sense test. See Pet. 24-25. Consistent
with that understanding, the court of appeals explained

18
that conduct can be condemned under the no-economicsense test only “if it is expected to yield a negative payoff, net of the costs of undertaking the conduct, and not
including any payoff from eliminating competition.”
Pet. App. 59a (quoting Gregory J. Werden, Identifying
Exclusionary Conduct Under Section 2: The “No Economic Sense” Test, 73 Antitrust L.J. 413, 416 (2006))
(emphasis omitted). That language reflects the understanding that if anticipated gains from eliminating competition are ignored, conduct that is expected to produce less in revenue than the costs it entails would not
be economically rational.
The court of appeals also suggested (without deciding) that, even when a particular refusal to deal is profitable in the sense described above, it may still be appropriate for an antitrust court to “balance gains to the
monopolist against losses to consumers, rivals, or others.” Pet. App. 60a n.13. Under that approach, particular conduct may be unlawful if it “benefit[s] the defendant very slightly while doing considerable harm to
the rest of the economy.” Ibid. The court made clear,
however, that the proper disposition of respondent’s appeal did not turn on the propriety of that form of balancing. See id. at 63a (“Even if an allegation that a defendant’s conduct was irrational but for its anticompetitive effect were necessary, [respondent] has plausibly
alleged just that.”); ibid. (“[T]his case is easier and does
not require precise delineation of the requirements of a
refusal-to-deal pleading.”). The court’s discussion of
“balancing” therefore provides no basis for this Court’s
review, especially because that discussion has no bearing on the court of appeals’ conclusion that respondent’s
refusal-to-deal allegations are sufficient because they

19
closely track the relevant circumstances of Aspen Skiing.
4. Petitioner seeks review on the question “whether
the Seventh Circuit erred in holding that a refusal-todeal claim under § 2 of the Sherman Act may proceed
despite the presence of valid business justifications for
the refusal.” Pet. i (first question presented) (emphasis
added). But this Court would have no occasion to decide
that question unless it first reviewed and reversed the
court of appeals’ determination that respondent has adequately alleged the absence of any such valid business
justification here. Petitioner offers no reason to conclude that review of that factbound antecedent issue
would be a sound use of this Court’s resources, particularly given the close correspondence between the challenged practices here and those that were condemned
in Aspen Skiing.
5. Petitioner does not identify (cf. Pet. 16-21) any
case in which another circuit has refused to find a cognizable refusal-to-deal claim when the plaintiff had alleged the three features from Aspen Skiing that this
Court identified as missing from the complaint in
Trinko. Nor does petitioner identify any case in which
another circuit has found that the no-economic-sense
test was satisfied yet held that a refusal-to-deal claim
could not go forward. Petitioner relies heavily (e.g., Pet.
17) on the Tenth Circuit’s decision in Novell, Inc. v. Microsoft Corp., 731 F.3d 1064 (2013) (Gorsuch, J.), cert.
denied, 572 U.S. 1096 (2014), and particularly on the
court’s statement that a monopolist’s refusal to deal
with its rival can violate Section 2 only if it is “irrational
but for its anticompetitive effect,” id. at 1075. But while
the court below declined to adopt the no-economicsense test as the exclusive standard for evaluating a

20
refusal-to-deal claim, see Pet. App. 60a n.13, it correctly
applied that test and found that respondent’s allegations satisfy it, see id. at 63a. There is consequently no
reason to believe that any other circuit would have
reached a different outcome here.
B. The Court Of Appeals’ Reinstatement Of Respondent’s
Tying Claim Does Not Warrant Further Review

The court of appeals correctly applied settled legal
principles to hold that respondent had created a triable
issue of fact about whether petitioner had unlawfully
conditioned Interconnect access on MVPDs’ purchases
of petitioner’s ad-rep services. That factbound holding
does not warrant further review.
1. The court of appeals analyzed respondent’s tying
claim under the correct legal standard, evaluating
whether (1) cooperative Interconnects and ad-rep services are separate products or services; (2) petitioner
has market power over Interconnect access; and (3) petitioner exploited its control over Interconnect access to
induce respondent’s clients to purchase ad-rep services
from petitioner. Pet. App. 71a-72a; see Jefferson Parish Hospital District No. 2 v. Hyde, 466 U.S. 2, 12
(1984). Petitioner does not dispute that respondent’s
tying claim satisfies the first two elements of that standard.
On the third element, petitioner asserts that “[a]t
most, ‘the relevant evidence shows [petitioner’s] desire
to solicit [respondent’s clients’] business directly,’ ‘consistent with’ its lawful goal of ‘increasing efficiency by
internalizing services.’ ” Pet. 26-27 (brackets and citation omitted). Other record evidence, however, supports a contrary conclusion. Internal emails from one
of respondent’s clients expressed the client’s understanding that it “would have to hire [petitioner] for ad

21
rep services if it wanted to regain [Interconnect] access.” Pet. App. 77a. Another client testified to the
FCC that “[petitioner] will only allow [it] to join the interconnects if [it] employs [petitioner]” as its advertising representative. Ibid. One of petitioner’s employees
admitted that any MVPD in the Chicago or Detroit region “has to” purchase ad-rep services from petitioner
in order to gain Interconnect access. Ibid. The court of
appeals correctly held that, viewed in the light most favorable to respondent, the record supports a reasonable
inference that petitioner required respondent’s clients
to purchase ad-rep services as a condition of regaining
Interconnect access.
Petitioner contends that respondent’s tying claim is
not triable regardless of any material factual dispute
over the usual elements of such a claim, because the tying claim here is “based on the same conduct” as the
refusal-to-deal claim. Pet. 29. Petitioner argues that
allowing such a “ ‘derivative’ ” claim to proceed would
amount to an “end-run around Trinko.” Pet. 26 (citation
omitted). That argument is unsound.
This Court rejected a similar argument in Eastman
Kodak Co. v. Image Technical Services, Inc., 504 U.S.
451 (1992), where the plaintiffs alleged “that Kodak had
unlawfully tied the sale of service for Kodak machines
to the sale of parts.” Id. at 459. The Court concluded
that the plaintiffs “ha[d] presented sufficient evidence
of a tie between service and parts” because the “record
indicate[d] that Kodak would sell parts to third parties
only if they agreed not to buy service from” other suppliers. Id. at 463. Kodak argued that the plaintiffs’ tying claim was foreclosed because Kodak’s “practice
[was] only a unilateral refusal to deal.” Id. at 463 n.8.
In rejecting that contention, the Court explained that,

22
even “[a]ssuming, arguendo, that Kodak’s” practice
could be “characterized as a unilateral refusal to deal,
its alleged sale of parts to third parties on condition that
they buy service from Kodak is not.” Ibid. Likewise
here, petitioner’s provision of Interconnect access to respondent’s former clients on the condition that they
purchase ad-rep services from petitioner may constitute an unlawful tying practice, even if petitioner’s actions with respect to respondent could be characterized
as a refusal to deal with a rival.
2. Petitioner’s reliance (Pet. 28) on this Court’s decision in linkLine, supra, is misplaced. The gravamen
of the linkLine plaintiff ’s antitrust claim was that a vertically integrated “firm with market power in the
[wholesale] market can squeeze its downstream competitors by raising the wholesale price of inputs while
cutting its own retail prices.” 555 U.S. at 449. The
plaintiff alleged that this “price squeeze” had effected
an antitrust violation, even though the defendant had
“no obligation under the antitrust laws to deal with the
plaintiff at wholesale” and the defendant’s retail prices
were “ ‘above predatory levels.’ ” Id. at 449, 451 (citation
omitted). In rejecting that theory of antitrust liability,
the Court described the price-squeeze claim as “nothing
more than an amalgamation of a meritless claim at the
retail level and a meritless claim at the wholesale level.”
Id. at 452.
Here, by contrast, respondent’s tying claim is not an
“amalgamation” of other claims. Rather, where specified criteria are satisfied, the use of a tying arrangement is an established basis for antitrust liability. See
p. 20, supra. Nothing in linkLine suggests that an otherwise meritorious antitrust claim can be rejected

23
simply because it involves a course of conduct that includes a refusal to deal.
The court of appeals’ decision also does not conflict
with Aerotec International, Inc. v. Honeywell International, Inc., 836 F.3d 1171 (9th Cir. 2016), or Service &
Training, Inc. v. Data General Corp., 963 F.2d 680 (4th
Cir. 1992). In each of those cases, the court rejected a
tying claim for lack of evidence of an actual tie, not because of any overlap with a refusal-to-deal claim. See
Aerotec, 836 F.3d at 1179 (“The problem with Aerotec’s
claim is that there is no tie, i.e., no evidence that Honeywell explicitly or implicitly ties or conditions the sale
of APU parts to APU owners on a requirement that the
owners ‘buy and repair Honeywell’ and/or for[]go services from independent service providers.”); Data General, 963 F.2d at 686 (“Appellants introduced no evidence from which it could reasonably be inferred that
Data General agreed to license MV/ADEX to CMOs
only on the condition that the CMOs also purchase Data
General’s repair services.”). Here, by contrast, the
court of appeals correctly determined that the record
evidence, viewed in the light most favorable to respondent, supports a reasonable inference that petitioner conditioned Interconnect access on purchase of its ad-rep
services. That factbound determination does not warrant further review, and it distinguishes respondent’s
tying claim from the claims rejected in Aerotec and
Data General.

24
CONCLUSION

The petition for a writ of certiorari should be denied.
Respectfully submitted.
ELIZABETH B. PRELOGAR
Acting Solicitor General
RICHARD A. POWERS
Acting Assistant Attorney
General
MALCOLM L. STEWART
Deputy Solicitor General
SOPAN JOSHI
Assistant to the Solicitor
General
KATHLEEN S. O’NEILL
Senior Director of Litigation
DANIEL E. HAAR
NICKOLAI G. LEVIN
MARY HELEN WIMBERLY
Attorneys

MAY 2021

